              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Protective Force MK-19 Grenade
Launcher Use at the National Nuclear
Security Administration’s Pantex
Facility




DOE/IG-0770                              July 2007
                          Department of Energy
                              Washington, DC 20585
                                 July 2 0 , 2007


MEMORANDUM FOR TWSECRETARY

FROM:                    4-
                         Greg ry . riedman
                         Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Protective Force
                         MK-19 Grenade Launcher Use at the National Nuclear Security
                         Administration's Pantex Facility"

BACKGROUND

The National Nuclear Security Administration's (NNSA) Pantex Facility is this Nation's
only nuclear weapons assembly and disassembly facility. The nature of such work
necessitates the development and implementation of protection strategies based upon the
Department of Energy's (Department) Design Basis Threat process. Facilities such as
Pantex develop Site Safeguards and Security Plans to describe the physical protection
programs, evaluations of risk, and identified facility targets associated with the threat.

In support of its protection strategy, Pantex utilizes a sizable protective force and it
employs a number of technologies to increase the effectiveness of its security and
response capabilities. Recently, Department sites such as Pantex have procured military
weaponry to gain increased capabilities in countering the potential of a more robust and
capable threat. In accordance with protective force guidelines, contractors responsible
for protective force personnel must establish formal qualification programs, supported by
formal training programs, which ensure protective force members are competent and
fully prepared to perform assigned tasks.

The Office of Inspector General received allegations that the MK- 19 40 millimeter
Grenade Launcher (MK- 19), procured for Pantex, was being utilized by protective force
officers who ( I ) lacked adequate training on the weapon, to include night training and the
firing of operational ammunition, and (2) had limited access to a training simulation system
and that this simulation system was inoperable at the time. We initiated an inspection to
review the facts and circumstances surrounding these allegations.

RESULTS OF INSPECTION

Our inspection substantiated the allegations and identified concerns with equipment,
training, and qualification regarding the MK-19 at Pantex. Specifically, we found that:

       Although the MK- 19 was to be utilized in darkness and during other reduced
       visibility conditions, it had been deployed without a night vision device or
       thermal imaging device compatible with the weapon's sighting system.




                             @    Pnnted w ~ t hsoy ink on recycled paper
   a   The contractor's formal training program for the MK-19 did not provide
       protective force officers with the knowledge, skills, and abilities required to
       perform assigned tasks. Protective force officers assigned to utilize the MK-19
       had not received formal training to engage targets at operational distances, under
       both daylight and reduced visibility conditions.

       The contractor's formal qualification program did not ensure protective force
       officers were fully competent to perform assigned tasks. Specifically, the Pantex
       qualification course did not cover site-specific deployment of the MK-19 and the
       required site-specific supplemental qualification courses for both daylight and
       reduced lighting had not been developed.

Further, we confirmed that Pantex had acquired a weapon training simulator that
enhances the site's ability to train on the h/IK-19 and other weapons, though its use is not
required by the Department. We confirmed that the simulator's MK-19 weapons had
become inoperable in mid-November 2006, however these were referred to the
manufacturer for repair in mid-December 2006. We observed that it was returned to
service shortly thereafter.

In addition, beyond the specific scope of this review, we found that the site contractor
had not provided its Security Police Officer-111's with certain mandatory site-specific
refresher training during Fiscal Year 2006.

We made several recommendations to management designed to enhance MK-19 training
and use at Pantex.

MANAGEMENT REACTION

In responding to our draft report, NNSA disagreed with our findings and
recommendations. NNSA did not believe the allegations had been substantiated and
asserted the actions taken in the training and deployment of the MK- 19 at the Pantex
Plant are appropriate and sustainable.

We found that NNSA's comments were not fully responsive as they did not address the
cited instances of non-compliance with DOE policy, nor did NNSA cite Department
policy to support its position. Additionally, and subsequent to our review of NNSA's
non-concurrence with our draft report, we learned that BWXT Pantex and the Pantex Site
Office have directed several actions with respect to the MK-19 that are consistent with
our recommendations.

We recognize that certain constraints may exist at Pantex that inhibit the site's ability to
acquire MK-19 compatible sighting systems, or to conduct range firing at operational
distances and under reduced-visibility conditions. However, the Department has an
established procedure to request variances, waivers or exceptions where safeguards and
security program directive requirements cannot be h l l y met. Pantex officials informed
us they had not requested any such deviations.
NNSA's comments are provided in their entirety in Appendix B of the report. In
addition, the Management and Inspector Comments section of the report contains a
detailed discussion of the comments.

Attachment

cc: Deputy Secretary
    Acting Administrator, National Nuclear Security Administration
    Chief of Staff
    Chief Health, Safety and Security Officer
    Manager, Pantex Site Office
    Director, Policy and Internal Controls Management (NA-66)
    Director, Office of Internal Review (CF-1.2)
    Audit Liaison, Pantex Site Office
PROTECTIVE FORCE MK-19 GRENADE LAUNCHER USE AT
THE NATIONAL NUCLEAR SECURITY ADMINISTRATION'S
PANTEX FACILITY


TABLE OF
CONTENTS



              OVERVIEW

              1 ntroduction and Objective ......................................................

              Observations and ch-lclusions .............................................


              DETAILS OF FINDINGS

              Necessary Equipment .............................................................

              Training Program ......................................................................

              Qualification Program...............................................................

              Annual Refresher Training                  .....................................................



              RECOMMENDATIONS ..........................................................




              APPENDICES

              A . Scope and Methodology ...................................................                      13

              B . Management comments ..................................................                         14
Overview

INTRODUCTION    The Department of Energy (DOE) mission includes highly
AND OBJECTIVE   sensitive work such as nuclear weapon research, design, and
                manufacturing. The nature of such work necessitates the
                implementation of formal security programs. Department
                facilities, including National Nuclear Security Administration
                (NNSA) sites such as the Pantex Facility, located in Amarillo,
                Texas, are required to develop and implement protection strategies
                based upon the Department's Design Basis Threat (DBT). The
                DBT describcs thrcats that are postulated for the purpose of
                analyzing safeguards and security programs, systems, components,
                equipment, information, or material. In addition, Department
                facilities that maintain special nuclear materials and other items of
                significant national security interes~must develop a Site
                Safeguards and Security Plan (SSSP) to describe the physical
                protection programs, evaluations of risk, and identified facility
                targets associated with the DBT.

                Department facilities utilize protective forces as part of thcir
                protection strategy. In addition, the Department employs
                technologies to increase the effectiveness of its security and
                rcsponse capabilities. Recently, DOE sites have procured military
                weaponry to gain increased capabilities in countering thc potential
                of a more robust and capable threat. In accordance with protective
                force guidelines, contractors responsible for protective force
                personnel must establish formal qualification programs, supported
                by formal training programs, which ensure protcctive force
                members are competent to perform assigned tasks. Protective
                force services at Pantex are provided by BWXT Pantex LLC
                (BWXT), which is the prime management and operating contractor
                for the site.

                The Office of Inspector General received allegations that the MK- 19
                40 millimeter Grenade Launcher (MK- 19), a military weapon system
                procured for NNSA's Pantex Facility was being utilized by
                protective force officers who (1) lacked adequate training on the
                weapon, to include night training and the firing of operational
                ammunition, and (2) had limited access to an electronic training
                simulation system and that this simulation system was inoperable at
                the time. We initiated an inspection to review the facts and
                circumstances surrounding these allegations.




Page 1                                        Protective Force MK-19 Grenade
                                              Lal~ncherUse at the National
                                              Nuclear Security Administration's
                                              Pantex Facility
OBSERVATIONS AND   Our inspection substantiated the allegations and identified
CONCLUSIONS        concerns with equipment, training, and qualification regarding the
                   MK-19 at Pantex. Specifically, we found that:

                          With respect to equipment, although the MK-19 was to be
                          utilized in darkness and during other reduced visibility
                          conditions, it had been deployed without a night vision
                          device or thermal imaging device compatible with the
                          weapon's sighting system. The two-person observation and
                          firing procedures utilized at Pantex do not meet Department
                          requirements for a compatible device. We learned that
                          BWXT Pantex had placed an order for compatible weapon-
                          mounted reduced visibility sighting systems in June 2005,
                          but that this order was cancelled in June 2007 and has not
                          been renewed.

                          With respect to training, the contractor's formal program
                          for the MK-19 did not provide protective force officers
                          with the knowledge, skills, and abilities required to perform
                          assigned tasks. Protective force officers assigned to utilize
                          the NIK-19 had not received formal training to engage
                          targets at operational distances, under both daylight and
                          reduced visibility conditions.

                          With respect to qualification, the contractor's fonnal
                          program did not ensure protective force officers were fully
                          competent to perform assigned tasks. Specifically, the
                          Pantex qualification course did not cover site-specific
                          deployment of the MK-19 and the required site-specific
                          supplemental qualification courses for both daylight and
                          reduced lighting had not been developed.

                   Further, we confimled that Pantex had acquired a weapon training
                   simulator that enhances the site's ability to train on the MK-19 and
                   other weapons, though its use is not required by the Department.
                   We confinned that the simulator's MK-19 weapons had become
                   inoperable in mid-November 2006, however these were referred to
                   the manufacturer for repair in mid-December 2006. We observed
                   that it was returned to service shortly thereafter.

                   Beyond the specific scope of this review, we found that for Fiscal
                   Year 2006, BWXT had not provided its Security Police Officer-
                   Ill's (SPO-111's) with mandatory site-specific refresher training
                   intended to maintain skills in:

                          Handgun Shoot On-The-Move (required annually)


Page 2                                              Observations and Conclusions
                Live Fire House Qualification (required every 6 months)
                SPO-111 Maintenance Training Part I1 (required annually)
                AR-15 Shoot On-The-Move Qualification (required
                annually)

         Management con~n~ents   to a draft of this report did not address the
         lack of FY 2006 refresher training, but reflect that the contractor is
         providing SPO 111 refresher training in FY 2007.

         As part of our inspection activities, we reviewed a May 2006 DOE
         Independent Oversight Safeguards and Security Inspection report
         of the "Pantex Plant and the Pantex Site Office," which cited
         findings and opportunities for improvement related to the MK- 19.
         We also reviewcd management's Corrective Action Plan (CAP)
         associated with the report, which indicated that the report's
         findings were the result of "inattention to detail," and closed the
         matter with a plan to "Implement [an] approved qualification
         range." The Office of Health, Safety and Security (HSS)
         subsequently found this CAP to be responsive in addressing the
         MK-19 related findings in the inspection report. However, during
         the course of our inspection fieldwork, we observed that multiple
         conditions similar to those previously identified by HSS continued
         to exist at Pantex.




Page 3                                     Observations and Conclusions
Details of Findings

NECESSARY         We found that, although the MK-19 was to be utilized in darkness
EQUIPMENT         and during other reduced visibility conditions, it was deployed
                  without a night vision device or thermal imaging device
                  compatible with the weapon's sighting system. DOE Manual
                  470.4-3, "Protective Force," requires that protective force officers
                  be "equipped and provided with the necessary resources to
                  effectively, efficiently, and safely perform both routine and
                  emergency duties in daylight and under reduced \risibility
                  conditions. Equipment, specifically weapons and communication
                  systems, must be tailored to effectively combat and defeat
                  adversaries identified in the DBT and site-specific threat guidance
                  or as specified in the . . . SSSP under all environmental and tactical
                  conditions." In addition, the Manual states that ". . . [night vision
                  devices] and/or thermal imaging devices compatible with weapon
                  sighting systems must be available for protective force use. . ."

                  NNSA officials recently authorized the deployment of the 41K-19
                  by the BWXT protective force. NNSA and contractor officials
                  told us that protective force officers were expected to use the
                  weapon on a "2417" basis, including hours of darkness and other
                  periods of reduced visibility such as fog. A contractor official said
                  that the full capability of the weapon system was needed to meet
                  facility protection requirements. However, we determined that
                  when the MK-19 was deployed at the facility, protective force
                  officers did not have a reduced visibility imaging device that was
                  compatible with the weapon's sighting system.

                  BWXT officials explained that instead, MK-19 operators used a
                  separate hand-held binocular-like night observation device to
                  acquire a target during reduced visibility. After acquiring a target,
                  the weapon operator handed that night observation device to a
                  second protective force officer. The second officer, using the
                  observation device, was relied upon to guide and direct the fire of
                  the MK-19 operator, who could no longer observe the target.
                  Contractor officials explained that during training, they equated
                  target acquisition under this two-person process with a target hit by
                  the weapon's operator. However, we determined this procedure
                  had not been verified as part of the MK-19 weapon qualification
                  program, and several protective force officers assigned to use the
                  NIK-19 told us this procedure did not allow them to effectively
                  engage a target in darkness.

                  A mounted, low visibility sighting system compatible with the
                  MK-19 would enable the weapon operator to acquire, identify and
                  engage a target in darkness. However, Pantex established the two-



Page 4                                                            Details of Findings
                   person procedure described above because MK-19 operators could
                   not employ the hand-held observation device and operate the
                   weapon simultaneously. Since the MK-19 operator was unable to
                   effectively observe the target or to employ the weapon's sighting
                   system while firing the weapon, we determined this non-sight
                   technique does not meet Department requirements for reduced-
                   light conditions.

                   We learned that in June 2005, BWXT placed an order for MK-19
                   compatible, weapon mounted, reduced visibility sighting systems.
                   The fact that the contractor placed an order for these low-visibility
                   sighting systems acknowledged a requirement for such equipment.
                   In June 2007, the contractor cancelled the order, citing competing
                   L7.S. military priorities and production delays, and that the low-
                   visibility sighting system that had been ordered was not compatible
                   with the Pantex operating environment. The contractor told us
                   there was no further need for the sighting system at that time. The
                   official said that future employment of the weapon during periods
                   of darkness or low visibility would rely upon the previously
                   described two-person sighting method.

                   In a discussion subsequent to our review of managerncnt
                   comments to a draft of this report, a BWXT official informed us
                   that there are currently no sighting systems on order, but the
                   contractor is evaluating available systems that meet the need for a
                   reduced visibility sighting device.

TRAINING PROGRAM   We found that the contractor's formal training program for the
                   MK- 19 did not provide protective force officers with the
                   knowledge, skills, and abilities (KSA) required to perform
                   assigned tasks. The DOE Protective Force Manual requires that
                   the qualification requirements will be supported by a fon~lal
                   training program that develops and maintains the knowledge, skills
                   and abilities requircd to perform assigned tasks.

                   As stated previously, Pantex protective force officers were
                   expected to use the MK- 19 in darkness and during other periods of
                   reduced visibility. In addition, it would be used at extended
                   distances and against a tnoving adversary. However, interviews of
                   site officials and our review of the site's training course disclosed
                   that the weapon training program only provided for basic operator
                   training at a firing range under favorable daylight and limited
                   distance conditions. Protective force officers assigned to utilize
                   the MK-19 did not receive fomlal training to engage targets at
                   operational distances, under both daylight and reduced visibility
                   conditions. Based on our review, MK-19 operator training



Page 5                                                             Details of Findings
                   provided by BWXT did not address the full range of Pantex
                   employment requirements.

                   Regarding the firing of operational ammunition, we determined
                   that the training ammunition used in the MK-19 was different from
                   the operational ammunition used in the weapon. BWXT
                   management officials said that protective force officers had not
                   fired operational amnlunition because Pantex lacked the
                   appropriate firing range. In management's view, the training
                   ammunition in combination with the weapon system simulator
                   bere sufficient to replicate the effects of the operational
                   ammunition, and did so at significant cost savings. Although we
                   found that not firing the operational ammunitiorl did not violate
                   DOE policy, somc protective force officers expressed concern to
                   us that they lacked experience in the firing and effects of the
                   operational ammunition they would be expectcd to use. As a
                   result, some assigned operators expressed a lack of confidence in
                   their full knowledge of the weapon and their ability to employ the
                   MK-19 effectively against an actual threat.

Weapon Simulator   We observed that Pantex had acquired a weapon training simulator
                   that enhances the site's ability to train on the MK-19 and other
                   weapons, though its use is not required by the Department. We
                   confirmed that the simulator's MK-19 weapons had become
                   inoperable in mid-November 2006, however these were referred to
                   the manufacturer for repair in mid-December 2006. We observed
                   that it was returned to service shortly thereafter.

                   Pantex's Elite Force Training Facility (EFTF) simulator had the
                   ability to replicate long range, maneuvering adversary and reduced
                   visibility conditions that cannot currently be trained for on existing
                   live-fire ranges at Pantex. .4 senior BWXT security official told us
                   the priority for MK-19 training had been to send all security police
                   officers through the EFTF for training. .4 Pantex site security
                   official told us MK-19 training should be prioritized to assigned
                   users.

                   Additionally, discussions with site officials indicated that the
                   capabilities the simulator offered for morc con~plexsite-specific
                   tasks were not part of the for~naltraining program for assigned
                   weapon operators. There was no formalized program in place to
                   specify which officers should receive priority in specific MK-19
                   training tasks. BWXT management indicated that a dedicated
                   training and relief cadre was recently reestablished to make
                   simulator training more widely available to officers during their
                   assigned shifts.



Page 6                                                             Details of Findings
                In a discussion subsequent to our review of management comments
                to a draft of this report, a BWXT official informed us that the
                BWXT Pantex 'Training Department has been tasked to develop a
                low-light moving target scenario in the EFTF simulator. The official
                added that the concept for EFTF use will be expanded to support
                qualification for iiioving targets under low-visibility conditions.

QUALIFICATION   We found that the contractor's formal qualification program did
PROGRAM         not ensure protective force officers were fully competent to
                perform assigncd tasks. While training programs are intended to
                build proficiency in required skills, qualification is a validation of
                competency in those skills. Specifically, the Pantex qualification
                course did not cover site-specific deployment of the MK-I 9 and
                the required site-spccific supplemental qualification courses for
                both daylight and reduced lighting had not been developed. The
                DOE Protective Force Manual requires that "Contractors
                responsible for protective force personnel must establish a formal
                qualification program to meet qualification requirements which
                ensure protective force members are competent to perform the
                tasks within their assigned responsibilities." The Manual also
                states that "Where DOE firearms qualification courses do not exist
                or do not cover site-specific deployment of a weapons system . . .
                both daylight and reduced lighting site-specific supplemental
                qualification courses must be developed by the cognizant security
                authority. . . "

                We determined that BWXT's formal qualification program for the
                MK-19, which NNSA approved, did not assure that protective
                force personnel demonstrated conlpetency under periods of
                reduced visibility or at distances at which an adversary could be
                potentially encountered. Our review revealed that protective force
                personnel were rated as qualified on the MK-19 after firing during
                daylight hours at a stationary target positioned at approximately 10
                percent of the distance that an adversary was expected to be
                engaged and neutralized. Contractor and Federal officials at the
                site expressed differing opinions as to whether training and
                qualification for the weapon were constrained by the available
                firing ranges and whether standards had been lowered to meet
                facility constraints.

                In a discussion subsequent to our review of management
                comments to a draft of this report, a BWXT official infoomled us
                that the Pantex Site Office is requiring that BWXT Pantex
                establish a low-light course of fire at the Pantex range facility.




Page 7                                                          Details of Findings
ANNUAL REFRESHER   Beyond the specific scope of this review, we found that for Fiscal
TRAINING           Year 2006, BWXT had not provided its SPO-III's with mandatory
                   refresher training intended to maintain their skill sets. The Code of
                   Federal Regulations requires that each security police officer must
                   successfully complete a course of refresher training at least every
                   12 months to maintain the minimum level of competency required
                   for the successful performance of tasks associated with security
                   officer job responsibilities. The type and intensity of training must
                   be based on a site-specific job analysis and approved by NNSA.
                   The contractor's Fiscal Year 2006 Training Plan required the
                   following courses for SPO-111 refresher training:

                          Handgun Shoot On-The-Move (required annually)
                          Live Fire House Qualification (required every 6 months)
                          SPO-ITI Maintenance Training Part 11(required annually)
                          AR-15 Shoot On-The-Move Qualification (required
                          annually)

                   Our review of Pantex training records revealed that only one of
                   many SPO-111 protective force officers had completed some of the
                   above required training in FY 2006 and did not reflect that any of
                   the required training had been completed by the other SPO III's.
                   Management comments to a draft of this report did not address the
                   lack of FY 2006 refresher training, but reflect that the contractor is
                   providing SPO I11 refresher training in FY 2007.

RECOMMENDATIONS    We recommend that the Manager, Pantex Site Office:

                   1. Regarding the DOE requirement to have a low-visibility
                      system that is compatible with the weapon sighting system:
                      (1) Reassess the decision to cancel the order for an attached,
                      compatible reduced visibility sighting system; (2) Continue
                      efforts to acquire a compatible sighting device that allows
                      optimal use of the weapon; and, (3) As an interim measure,
                      seek a deviation from DOE requirements.

                   2. Ensure the MK-19 formal training program develops protective
                      force officer proficiency in engaging targets at operational
                      distances, and in the conduct of night operations. Consider
                      formalizing simulator exercises for assigned MK- 19 operators
                      and establishing a uniform approach, based on priority of need,
                      for access to the simulator.

                   3. Pursue improvements to Pantex MK- 19 range facilities to
                      enable qualification fire at operational distances, and during
                      limited visibility. If such improvements are determined to be


Page 8                                                              Recommendations
                   infeasible, request an appropriate deviation from Department
                   requirements.

                4. Establish a system of internal controls to ensure that all
                   SPO-111's consistently receive all required refresher training.

MANAGEMENT      Management's verbatim comments regarding a draft version of this
AND INSPECTOR   report are contained in their entirety at Appendix B. As
COMMENTS        appropriate, we made changes to our report to address
                management's comments. Below is a summary of management's
                comments, along with our response.

                In general comments to the draft report, it was IL3SA's position
                that the allegations that were the basis for the OIG review have not
                been substantiated, and NNSA did not agree with the OIG
                recommendations. NNSA stated that a review by NNSA and
                military subject matter experts did not support the OIG's
                assessments.

                Inspector Comments: We found that NNSA's comments were
                not fully responsive to the report's findings and recommendations.
                Specifically, management's response did not address the cited
                instances of non-compliance with DOE policy, nor did NNSA cite
                Department policy to support its position.

                In its response, NNSA referred to statements and opinions
                attributed to NNSA and "military subject matter expcrts" and to
                information from a Department of Defense (DOD) Field Manual
                (FM 3-22.27, MK-19,40-mm Grenade Machine Gun). We fully
                considered this additional material and found the DOD Manual to
                be consistent with our position and that management's position
                was inconsistent with DOE policy.

                Additionally, in discussions with BWXT security officials
                subsequent to our review of these management comments non-
                concurring with our report, we were told that BWXT Pantex and
                the Pantex Site Office have directed several actions with respect to
                the MK-19 that are consistent with our draft recommendations.
                Therefore, we stand by our findings and recommendations.

                Recommendation 1

                Management stated that the comment in the report on a shortage of
                low-visibility or night sights for the MK-19 is valid, but it's not
                known what Pantex can do about it. Management also stated that
                an effective sight for the system was developed only in the last



Page 9                                  Management and Inspector Cornments
          three years, and all available are going to the military.
          Management further cited an opinion that it is more effective for
          the MK-19 gunner to use head-worn night vision goggles.

          Inspector Comments: The DOE Protective Force Manual
          requires that night vision or thermal imaging devices compatible
          with weapon sighting systems must be available for protective
          force use. NNSA's comments cite an opinion regarding the use of
          head-worn night vision goggles, but this is not the established
          Pantex sighting method. The Pantex two-person observation
          method employed at the site is not compatible with the weapon's
          sighting system. Further, since Pantex has not conducted
          qualification fire at night, neither of these two methods has been
          validated as ensuring protective officer competence.

          BWXT previously submitted a requisition for weapon mounted
          reduced visibility sighting systems compatible with the MK-19,
          which acknowledged a requirement for such a system, though this
          order was subsequently cancelled. We confirmed that no such
          systems are currently on order. The Department requires that
          deviations from Safeguards and Security program directives
          require approval before implementation. Pantex has sought no
          such deviation.

          Recommendation 2

          Regarding MK- 19 training, ~rlanagementstated that the MK- 19
          weapon is not aimed, but utilized in a depth and width (area fire)
          concept to provide suppressive fire at predetermined areas. The
          management response stated that understanding the following four
          areas is key to the effective use of the MK-19: (1) weapon cycling
          and functioning; (2) loading, unloading, stoppages, mis-fires and
          runaway gun; (3) the traverse and elevation mechanism; and (4)
          employing the shooter-spotter concept and demonstrating that
          concept in dry-fire (no ammunition) and live-fire training
          ammunition environments in daylight and reduced visibility
          conditions.

          Inspector Comments: Management's position that the MK-19 is
          not aimed is inconsistent with the weapon's anti-armor capability.
          [Operational MK-19 ammunition can penetrate up to two inches of
          steel armor upon impact with a point target (e.g., a vehicle).] The
          probability of the ammunition disabling or defeating an armored
          vehicle decreases dramatically in an area fire mode.
          Management's position that the MK-19 is not aimed is also
          contradicted by the referenced DOD Field Manual, which cites the



Page 10                           Management and Inspector Comments
          MK-19 can be employed against a point target at up to 1,500
          meters distance. In fact, the DOD qualification program requires
          operators of the MK-19 to demonstrate weapon system proficiency
          during qualification by hitting multiple point targets at various
          distances during both daylight and reduced visibility conditions.

          NNSA cited one of its four key areas to the effective use of the
          MK- 19 as demonstrating the shooter-spotter concept in a live-fire
          training ammunition environment under reduced visibility
          conditions. Our inspection activities previously determined that
          Pantex did not conduct reduced visibility live-fire training with the
          MK- 19. Therefore, Pantex training practices were not supportive
          of demonstrated competency in this key area.

          Recomnlendation 3

          Management stated MK- 19 training and qualification are
          accomplished through dry-fire and the use of training ammunition.
          Management also contended the weapon is not aimed, and cited an
          example of one military expert who claimed to have qualified over
          8,000 Marines using area suppression procedures.

          Inspector Comments: The DOE Protective Force Manual
          requires that formal qualification programs ensure that protective
          force members are competent to perform the tasks within their
          assigned responsibilities. Further, qualification is required under
          both daylight and reduced-lighting conditions. Contrary to DOE
          criteria and Pantex employment requirements, MK- 19 qualification
          was conducted with 12 rounds of training ammunition, in daylight
          conditions, fired at one stationary target located at approximately
          10 percent of the anticipated operational employment distance. As
          such, MK-19 qualification at Pantex was limited to the most basic
          tasks supported by the site's live fire range rather than all tasks
          under required conditions.

          Management's position that the MK-19 is an area fire weapon is
          inconsistent with qualification criteria in the referenced DOD Field
          Manual. The DOD Manual specifies that multiple targets in its
          daylnight qualification tables are point targets, and the MK-19
          scoring standard requires that one or two rounds must strike the
          designated targets. Further, DOD qualification tables can require
          over 100 rounds of ammunition per MK-19 crew, per qualification
          cycle; this is far in excess of the 12 rounds fired at Pantex for
          qualification.




Page 11                           Management and Inspector Comments
          NNSA's response did not alter our finding that the MK-19
          qualification program did not ensure protective force officers were
          fully competent to perform assigned tasks. Based on our analysis
          of DOE policy and the Pantex qualification program, the site has
          not validated proficiency in the full range of assigned tasks.

          Recommendation 4

          In its response, management stated that 100 SPO 111's received site
          specific refresher training between October 2006 and March 2007.
          Additional refresher training is scheduled for the period April
          through September 2007.

          Inspector Comments: Management did not address our finding
          regarding BWXT's failure to provide required annual refresher
          training to its SPO 111's in Fiscal Year 2006. However, we
          consider their ongoing conduct of Fiscal Year 2007 refresher
          training an improvement and as responsive to our
          recommendation.




Page 12                           Management and Inspector Comments
Appendix A

SCOPE AND     The fieldwork for this inspection was conducted in December 2006
METHODOLOGY   and continued with additional interviews through July 2007. As
              part of this inspection, we visited the Pantex facility and met with
              DOE, NNSA, and contractor officials. We conducted a document
              review and analysis that included:

                     An FY 2006 Contract Performance Evaluation Report;

                     The facility Site Safeguards and Security Plan
                     documentation;

                     Facility protective force training records;

                     Facility training plans;

                 a   Procurement documentation;

                 a   DOE Manual 470.4-2, "Physical Protection";

                 a   DOE Manual 470.4-3, "Protective Force"; and,

                 a   DOD FM 3-22.27, "MK 19,40-mm Grenade Machine Gun,
                     Mod 3".

              This inspection was conducted in accordance with the "Quality
              Standards for Inspections" issued by the President's Council on
              Integrity and Efficiency.




Page 13                                                Scope and Methodology
Appendix B



                                      Department of Energy
                               National Nuclear Security Adrn~nistration
                                        Wash~ngton.DC 20585




             MEMORANDUM FOR                 C'hristopher R. Sharpley
                                            Deputy Inspector Gcncral
                                              For Invcstixatlons and Inspections

                                            Michael C. Kane

                                               For Management and Adrn~nistration

             SUBJECT:                       Comments to Draft Inspect~onReport o n
                                            M K - I 0 llse at Pantex; S071S007I2007-
                                            02108


             The Nat~onalNuclcar Sccurity Administration (NNSA) appreciates the
             opportunity to review the draft Inspector General (IG) report, "Protective
             Force M K - I 9 Grenade Launcher Use at the National Nuclear Security
             Administration's Pantex Facility." We understand that thc 1G rccc~vcd
             allcgalions related to the use ol'the M K 1 9 and other matters. and that the
             IG believes the allegations have been substantiatcd.

             NNSA's position is that the allegations have not been substantiated, and
             we d o not agree with the recommendations. OUI-own review by NNSA
             and military s~tbjectmatter experts docs not support the LC's asscssmcnts.

             The attached narrative provides the basis for our disagreerncnt with thc
             conclusions and rccon~mcndationsthat appear in the draft 1G report.

             S h o ~ ~ you
                       l d have any questions about t h ~ responsc,
                                                          s         plcase contact K~chard
             Speidel, Director, Policy and Internal Controls Management

             Attachment

             cc:     Steven Erhahrt. Manager, Pantex Site Officc
                     William Desmond, Associatc Administrator for Defense Nuclear Sccur~ty
                     Karcn Boardman, Director, S ~ I - v i cCcntcr
                                                            c
                     David Boyd, Senior Procurement Executive




                                                                                -   - - -




Page 14                                                                        Management Comments
                                    NNSA's Narrative to the IG's Draft Report

                              Protective Force MK-IY Grenada Launcher Use at lire
                            National Nuclear Security .4dministrations' Pantex Facility


          Phe following comments justify non-concurrence with thc rcport as well as describe
          actions taken by BWXT in training and deploymcnl o f t h c MK-19 at the Pantcx Plant that
          are both appropriatc and sustainable. In addition to information from the Field Manual
          (FW 3-22.27), some of which is theorctical in naturc, practical application data was also
          obtained from a number of military experts who have actually commanded and trained
          military personnel on the proper use of the weapon systern as well as very recently
          deployed the MK-19 in combat situations. This data is absolutely necessary when
          analyzing the training and deployment strategy of the MK-19 at thc Pantex Plant.

          One concern the rcport alleged was the stated non-compliance with Departmental policy
          that lie MK-I9 tra~ningdid not provide PF officers with the knowledge, skills and
          abilities necessary to effectively pcrform assigned tasks as I-equircd to include firing
          operational ammunrtion used in the ueapon. The key to cffectivc use of tlic M K I O is:

                 (I ) understanding wcapon cycle and functioning;
                 (2) understanding how to handle loading, unloading, miss-fircs, stoppages, and
                 runaway gun;
                 (3) understanding travcrse and elevation niechanism ('T&E) manipulation; and
                 (4) understanding how to cmploy the shooter-spottcr concept and then
                 derno~istratingin a dry-fire and live-firc environment (using training practice (TP)
                 rounds), ~ ~ n ddaylight
                                  er      and reduccd visibility conditions.

          This is very basic. but if an individual can do thosc things, then the wcapon can
          cffcctively be eniployed. BWXT Pantex is currently training the assistant gunner/gunner
          conccpt and reduced-visibility operations in the Elite Force Training Facility (simulator).
          In addition, the Simulator provides the ability to train against realistic adversary threats
          such as aircraft, thrcat vehicles, and ground troops. This system is uscd to train America's
          fighting forces to defend this country against the same or very similar threats. No DOE
          Site has thc capabil~tyto physically shoot down aircraft; cngage vehicles moving at
          advcrsary threat spccds; o r engage rcal personnel serving as adversary targets. The
          MK19 is a crew-served wcapon system, designcd to be employed by a minimum
          ?-man tcam--one shooter, one spotter. I t is also an area-suppression weapon, designcd to
          he fired using a T&E rear sight to give range, range card and TEWts (target reference
          points). Thc weapon is not aimed--it utilizcs a search (depth) and traversc (width)
          concept by manipulation of the TGtE across a given area defined by a range card. The
          ~nathemat~cs  of wcapon characteristics, range and elevation cor~ibincdwith the l'&E
          mean the weapon can bc sct to firc within the arca defined by sighting and thcn "dry"
          travcrsing the T&E without having to fire a shot. TRPs arc "triggers", once an adversary
          triggers thc TRP, he is in the arca to be suppressed. and thc shooter starts shooting, the
          spotter observes impacts and movement of advcrsaries and gives T&E corrections to the




Page 15                                                                            Management Corr~ments
          shooter, who then adjusts the T&E and range. In practice, this can be done day, night,
          rain, snow, dust all day without a low-visibility sight as long as the spotter or shooter
          know when the TRF' is tripped and range cards are accurate. Always better if spotter has
          eyes on the entire area of course, but not necessary.

          Onc military expert stated he qualified over 8,000 Marines on the MK-19 using thc abovc
          concepts and without firing a single round of operational ammunition and they performed
          well in combat. Additionally, operational ammunition is extremely expcnsi\fe and MK-
          19 ranges capable o f supporting operational ammo are rare, very expensive, and require a
          great deal of support because of the high dud rate. Because of this, M K - I 9 ranges are
          rare on military hascs. H e stated: "It is nice, when possible, to provide personnel an
          opportunity to shoot live rounds, and it does give them confidence in the weapon. but the
          cost-benefit needs to he weighcd closely before investing in a M K - I 9 mnge."
          'Tier-Onc special operations also did .an independent rcvicw and concluded that thc
          Pantex implementation of "the MK-19 program meets the minimum acccptahle
          standards." They stated, " a cursory review of the MK-19 training and qualification
          program might lead to erroneous recommendations." Additionally, thc team stated that
          success will mostly be determined by the site's "unhindered interest to implement the
          existing and proposed plans." The IG report also states Protective Force officers have not
          receivcd adequate training in night operations for the weapon and the weapon was
          dcployed without a rcduced visibility sighting system that would effectively direct thc
          weapon's fire under these conditions. The MK-19 was fully deployed in Deccmber 2005.
          Prior to Deccmber 2005, 313 SPO 11 1s were traincd to staff these positions. I t is
          possible a portion of thcsc SPOs IIIs, approxin~ately399'0, did not initially train on thc
          simulator, as it was not fully implemented at the time. Since this time, an additional 310
          more SPOs have qualified on the MK-19 with all participating in the Simulator training
          prior to qualifying. However, given the numbers of SPOs who have trained in Simulator
          sincc i t became operational, it is very likely that most of these 212 havc sincc been in thc
          simulator and reccivcd training on the MK-19. 'l'hc Siniulator became fully operational
          in January 2006. From that point through March 2007, more than 1,800 students havc
          been trained on the Simulator with more than 1 10,000 MK- 19 simulator rounds fired.
          The MK-19s for the Simulator were operational during the time of the IG visit. The guns
          were operating and wcrc functioning according to manufacturer specifications. From
          November 15 - December 14 (29 days), BWXT Pantcx deadlined the sin~ulatorMK-19s
          pending a review from thc Vendor regarding a potential safety issue. On December 14,
          the vendor negated the safety concern and training restarted. There wcrc 16 training days
          during this 29-day period that no MK-19 simulator training occurred. Personnel did
          continue to train on the other primary firearms systems during this period. Outside the
          29-day period in November and Deccmbcr, there were more than 12.000 M K - I 0
          simulator rounds fire. The safety stand down caused little or 110 impact on the MK- I9
          simulator-training program.

          The commcnt in the report on a shortage of low-visibility or night sights for thc M K - I 9 is
          valid but it's not known what Pantcx can do about it. An effective sight for the system
          was developed only in the last three years, and all available are going to Ihe military. Use
          of a low-visihilitylniylit sight on thc MK 19 has always hccn problematic primarily




Page 16                                                                             Management Comments
          because the shooting positions requircd with the MK-19 are not conducive to kecping
          your eyes in the standing position, if the shooter puts their cyes up close to a sight, the
          recoil will likcly knock them out. This explains the concept of the shooter shoots, and the
          spottcr spots. One military expert stated "low-visibilitylniglit sight on the MK.-19 was
          ~mportantin Iraq bccause MK- 19 gunncrs in vehicles are up there without a spotter, so
          when contact is made, thcy could look through the sight, get initial range, then engage
          quickly. However, my SOP is that you always got a spotter into the turret as quickly as
          possible bccause thc shooter can't keep eyes on the target and shoot. Thc two-person
          method used at Pantex appears to mirror this, and is in my opinion the only effective way
          to shoot the thing accurately undcr those conditions. That said, we effectively crnployed
          the MK-19 undcr all conditions without a low-visibilitylnight sight for 3lmost 20 ycars,
          and used i t pretty effectively in all conditions. In actual practice in Iraq, we seldom used
          the night sight because it is more a pain thcn help. Much more effective for the gunncr to
          use PVS-18119 [head-worn night vision goggles)". The Simulator Training Program
          provides the most realistic training opportunities for the full range of ~acticaland
          envirolunental conditions. The current lesson plans in place demonstrate these
          capabilities.

          The report also alleged thc weapon training simulator acquired to support training of the
          MK-19 was only available on a vcry limited basis and was inoperable at the timc. As
          stated carlier BWXT Pantex has opcrated the simulator since January 2006 and has
          consistently incrcased the number o f SPOs put through the familiarization. The systcin
          has not bcen down for long periods of time howcver various weapons used in the
          simulator havc necded repair andlor maintenance. Military personnel I'amiliar with the
          MK-19 have stated simulator training is a nice add-on, but is not a qualification
          rcquircnient. Lastly, although beyond the scopc of this review, the report allegcs BWXT
          had not provided SPO 11 I s with mandatory site-specific annual refresher training. From
          October 2006 through March 2007, 100 SPO 1 l 1s receivcd maintenance training that
          includcd handgudrifle shoot on the move, tactical obstaclc coursc, training on tactical
          cntry using [lye marking ca~tridgctechnology, and tactical team movement. The second
          session of this maintenance training is scheduled for April 2007 through September 2007.




Page 17                                                                            Management Comments
                                                                     IG Keport No. DOEIIG-0770

                           CUSTONIER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you limy suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recominendations could have been
   iilcluded in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG- 1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Ms. Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as custonler friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http:/iww~~.i~.doe.gov

       Your comments would be appreciated and can be provided on the Custonler Response Form
                                      attached to the report.
